TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Fiscal Year 2006 Statutory Review of
                       Compliance With Lien Due Process
                                   Procedures



                                             June 2006

                              Reference Number: 2006-30-094




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   June 21, 2006


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION



 FROM:                           (for) Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Fiscal Year 2006 Statutory Review of Compliance
                                 With Lien Due Process Procedures (Audit # 200530024)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) Lien Due
 Process Procedures. The overall objective of this review was to determine whether Notices of
 Federal Tax Lien (NFTL) issued by the IRS comply with legal guidelines set forth in Internal
 Revenue Code Section (I.R.C. §) 6320.1

 Synopsis
 The Treasury Inspector General for Tax Administration is required to determine annually
 whether NFTLs filed by the IRS comply with the legal guidelines in I.R.C. § 6320.2 This is our
 eighth annual audit to determine the IRS’ compliance with the law, and its own related internal
 guidelines, when filing NFTLs.
 The IRS did not completely comply with the law. Our review of a statistically valid sample of
 150 NFTLs identified 7 NFTLs (4.67 percent) for which the IRS correctly mailed the lien
 notices; however, it did not mail the lien notices timely as required by I.R.C. § 6320. In addition,
 for another 2 NFTLs (1.33 percent), we could not determine if the IRS complied with the law
 because the IRS could not provide proof of timely mailing. In June 2004, the IRS began printing
 the NFTLs at the National Print Sites to increase the timeliness of mailing the lien notices;
 however, this process showed no improvement in mailing lien notices more timely.

 1
     I.R.C. § 6320 (Supp. V 1999).
 2
     I.R.C. § 7803(d)(1)(A)(iii) (Supp. V 1999).
                   Fiscal Year 2006 Statutory Review of Compliance With Lien Due
                                        Process Procedures



In addition, the IRS did not follow its own internal guidelines when issuing lien notices,
including the guidelines for notifying taxpayer representatives and resending lien notices when
they are returned as undeliverable. In 34 (75.6 percent) of 45 NFTLs for which the taxpayer had
a representative, the IRS did not notify the taxpayer representatives of the filing of the lien. In
addition, undelivered lien notices were not timely controlled on the Automated Lien System.3

Recommendations
We recommended the Director, Collection, Small Business/Self-Employed (SB/SE) Division,
consult with the Office of Chief Counsel to identify any actions necessary to correct the potential
legal violations we identified in this audit. Also, we recommended the Director, Collection,
SB/SE Division, and the Director, Campus Compliance Services, SB/SE Division, consider
revising the proposed program enhancements to systemically update the power of attorney
information from the Centralized Authorization File4 to the Automated Lien System, thus
eliminating the manual process. Also, the Director, Collection, SB/SE Division, and the
Director, Campus Compliance Services, SB/SE Division, should develop an alternate solution if
the program enhancements are not implemented.

Response
SB/SE Division Management agreed with our recommendations and already implemented one of
the corrective actions. SB/SE Division management consulted with the Office of Chief Counsel
to identify any actions necessary to correct the potential legal violations. In addition, they will
establish procedures addressing emailing power of attorney information to the Centralized Lien
Unit. SB/SE Division management also plans to discuss the feasibility of using the Centralized
Authorization File to update the Automated Lien System with power of attorney information.
Copies of this report are also being sent to IRS officials affected by the report recommendations.
Please contact me at (202) 622-6510 if you have questions or Daniel R. Devlin, Assistant
Inspector General for Audit (Small Business and Corporate Programs), at (202) 622-8500.




3
  A description of IRS computer systems used in the filing of lien notices is included in Appendix VI.
4
  Employees can research this File to identify the type of authorization that taxpayers have given their
representatives.
                                                                                                           2
                     Fiscal Year 2006 Statutory Review of Compliance With Lien Due
                                          Process Procedures




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Lien Notices Were Not Always Mailed Timely ...........................................Page 4
                    Recommendation 1:..........................................................Page 5

          Internal Guidelines for Notifying Taxpayer Representatives Were
          Not Being Followed.......................................................................................Page 5
                    Recommendations 2 and 3: ................................................Page 7

          Undelivered Lien Notices Were Not Timely Controlled on the
          Automated Lien System ...............................................................................Page 7

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Outcome Measure ................................................................Page 13
          Appendix V – Synopsis of the Internal Revenue Service Collection
          and Lien Filing Processes .............................................................................Page 14
          Appendix VI – Internal Revenue Service Computer Systems Used
          in the Filing of Notices of Federal Tax Lien.................................................Page 16
          Appendix VII – Management’s Response to the Draft Report ……………Page 17
                  Fiscal Year 2006 Statutory Review of Compliance With Lien Due
                                       Process Procedures




                                            Background

The Internal Revenue Service (IRS) attempts to collect Federal taxes due from taxpayers by
sending letters, making telephone calls, and meeting face to face with taxpayers. When initial
contacts by the IRS do not result in the successful collection of unpaid tax, the IRS has the
authority to attach a claim to the taxpayer’s assets for the amount of unpaid tax liabilities.1 This
claim is referred to as a Federal Tax Lien. The IRS files a Notice of Federal Tax Lien (NFTL),2
which notifies people that a lien exists.
Since January 19, 1999, Internal Revenue Code Section (I.R.C. §) 63203 has required the IRS to
notify taxpayers in writing within 5 business days of the filing of an NFTL. The IRS is required
to notify taxpayers the first time an NFTL is filed for each tax period. The Notice of Federal Tax
Lien Filing and Your Right to a Hearing Under IRC 63204 (lien notice) is used for this purpose
and advises taxpayers that they have 30 calendar days, after that 5-day period, to request a
hearing with the IRS Appeals office. The lien notice indicates the date this 30-day period
expires.
The law also requires that the lien notice explain, in simple terms, the amount of unpaid tax,
administrative appeals available to the taxpayer, and the provisions of the law and procedures
relating to the release of liens on property. The lien notice must be given in person, left at the
taxpayer’s home or business, or sent certified or registered mail to the taxpayer’s last known
address.
The lien processing operation has been centralized at the Cincinnati, Ohio, Campus,5 except for
printing and mailing lien notices. The centralization began in August 2004 and took most of
Fiscal Year (FY) 2005 to be implemented. The National Print Sites (NPS) in Detroit, Michigan,
and Ogden, Utah, have been responsible for the printing and mailing of lien notices since
June 2004.
A synopsis of the IRS collection and lien filing processes is included in Appendix V. A
description of IRS computer systems used in the filing of liens is included in Appendix VI.
The IRS has been relatively consistent in the number of NFTL filings to protect the Federal
Government’s interest. The number of NFTLs filed increased by 118,150 from FY 2001 to

1
  Internal Revenue Code § 6321 (1994).
2
  Notice of Federal Tax Lien (Form 668(Y) (c); (Rev. 10-1999)), Cat. No. 60025X.
3
  I.R.C. § 6320 (Supp. V 1999).
4
  Notice of Federal Tax Lien Filing and Your Right to a Hearing Under IRC 6320 (Letter 3172 (Rev. 11-2004),
Cat. No. 26767I.
5
  A campus is the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 1
                                 Fiscal Year 2006 Statutory Review of Compliance With Lien Due
                                                      Process Procedures



FY 2003, then dropped slightly in FYs 2004 and 2005. Figure 1 shows the number of NFTLs
filed in the last 5 fiscal years.
                                                        Figure 1: Liens Filed



                                                                              5 4 4 ,3 1 6
                                6 0 0 ,0 0 0                  4 8 2 ,5 0 9                    5 3 4 ,3 9 2
              Number of Liens




                                                                                                             5 2 2 ,8 8 7
                                5 0 0 ,0 0 0   4 2 6 ,1 6 6
                                4 0 0 ,0 0 0
                                3 0 0 ,0 0 0

                                2 0 0 ,0 0 0
                                1 0 0 ,0 0 0

                                          0
                                               2001           2002            2003             2004          2005
                                                                         F is c a l Y e a r


Source: IRS Databooks 2004 and 2005.

The Treasury Inspector General for Tax Administration (TIGTA) is required to determine
annually whether NFTLs filed by the IRS comply with the law.6 Our review included visits to
the NPS in Detroit, Michigan, and the Centralized Case Processing (CCP) function located in
Covington, Kentucky. We performed our audit work during the period September 2005 through
February 2006.
The audit was conducted in accordance with Government Auditing Standards. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.

Results of prior TIGTA reviews
This is our eighth annual audit to determine if the IRS complied with the legal requirements of
I.R.C. § 6320, and its own related internal guidelines, when filing NFTLs. In prior years, we
reported the IRS had not yet achieved full compliance with the law and its own internal
guidelines. Figure 2 shows the percentages of potential violations of taxpayer rights.




6
    I.R.C. § 7803(d)(1)(A)(iii) (Supp. V 1999).
                                                                                                                            Page 2
                                    Fiscal Year 2006 Statutory Review of Compliance With Lien Due
                                                         Process Procedures



                                       Figure 2: Potential Violations of Taxpayer Rights



                              10%                      9%
                                             8%
   Percentage of Violations




                              8%
                              6%                                            5%        5%
                                                                   4%
                              4%
                              2%
                              0%

                                            2001      2002       2003     2004      2005
                                                            Fiscal Year

Source: TIGTA mandatory lien reviews in FYs 2001 through 2005.




                                                                                            Page 3
                Fiscal Year 2006 Statutory Review of Compliance With Lien Due
                                     Process Procedures




                                 Results of Review

Lien Notices Were Not Always Mailed Timely
Our review of a statistically valid sample of 150 NFTLs identified 7 NFTLs (4.67 percent) for
which the IRS correctly mailed the lien notices; however, it did not mail the lien notices timely
as required by I.R.C. § 6320. For the 7 NFTLs, lien notices were not mailed within 5 business
days after the day of the filing of the liens. We estimate that 23,825 lien notices prepared from
August 1, 2004, through July 31, 2005, could have been mailed late. See Appendix IV for
details.
Using the NPSs in Detroit and Ogden for the printing and mailing of lien notices was a new
procedure established to substantially reduce the number of untimely issued notices because
these locations each have their own mail facility. However, we identified no improvement in the
timeliness of mailing lien notices since our prior audit. This year’s percentage of untimely
mailed lien notices (4.67 percent) is the same as the percentage that we identified last year.
Although we could not identify the specific reasons for the delays, all of the untimely lien notice
mailings occurred at the Detroit NPS. Management could not provide an explanation as to why
the lien notices were not mailed timely. The in-house mail facility is located in the basement of
the NPS where one United States Postal Service employee is responsible for date stamping the
certified mail listings. The lien notices are carried to the mail unit where they are metered and
prepared for shipment daily to the main post office for shipping. An IRS employee sends the
certified mail listings to the CCP function via overnight mail.
Delays in mailing the lien notices can reduce the time a taxpayer has to request a hearing to less
than the 30-day period allowed by the law. These errors could result in violations of taxpayers’
rights should they appeal the filing of the lien notice and the IRS deny the request for appeal.

Controls over the processing of certified mail listings improved
We could not determine if the IRS complied with the law in another 2 of the 150 NFTLs
(1.33 percent) because Small Business/Self-Employed (SB/SE) Division management could not
provide proof of timely mailing the certified mail listings. This is a significant improvement
from the previous 5 years, when the missing certified mail listings averaged 9.9 percent. The
procedures management implemented over the processing of the certified mail listings seem to
be working effectively. IRS procedures require the retention of the date-stamped copy of the
certified mail listings for 10 years after the end of the processing year.



                                                                                            Page 4
                Fiscal Year 2006 Statutory Review of Compliance With Lien Due
                                     Process Procedures



The IRS National Headquarters NFTL compliance review was postponed
Since 1999, the IRS has performed Compliance Lien Collection Due Process Reviews annually
to ensure IRS procedures are being followed and taxpayers’ rights are being protected.
However, the Review was not performed during this audit period due to the centralization effort.
The IRS will begin its next review in June 2006. The Review includes analyses to determine if
the IRS timely notified taxpayers, business partners, spouses, and taxpayer representatives of the
filing of an NFTL and timely processed undelivered mail.

Recommendation
Recommendation 1: The Director, Collection, SB/SE Division, should consult with the
Office of Chief Counsel to identify any actions necessary to correct the potential legal violations
we identified in this audit.
       Management’s Response: SB/SE Division management agreed with our
       recommendation and consulted with the Office of Chief Counsel to identify any actions
       necessary to correct the potential legal violations.

Internal Guidelines for Notifying Taxpayer Representatives Were Not
Being Followed
Taxpayer representative information is contained on the Centralized Authorization File (CAF)
that is located on the Integrated Data Retrieval System (IDRS), a system that enables IRS
employees to have access to certain taxpayer accounts. Using the IDRS, employees can research
the CAF to identify the type of authorization that taxpayers have given their representatives. IRS
employees responsible for making the lien filing determination are to ensure appropriate persons,
such as those with a taxpayer’s power of attorney (POA), receive a copy of the lien notice. Our
review of IRS computer systems showed that, in 34 (75.6 percent) of 45 NFTLs for which the
taxpayer had a representative, a copy of the lien notice was not sent to the representative as
required by the IRS’ internal guidelines. The IRS stated this happened because of various
reasons, such as the employees did not forward the taxpayer representatives’ information to the
Automated Lien System (ALS) Unit or ALS Unit employees did not input the request for the
notice although they had received the taxpayer representatives’ information.
Another contributing factor was that the IRS was in the process of transitioning from 34 lien
operations into 1 CCP function. Management did not have all of the procedures in place to
effectively handle the volume of work to be processed at the CCP function. Initially, it appeared
there were large volumes of POA requests and lien units were unable to control receipt and
initiate processing. IRS employees who made the lien filing determinations were instructed to
fax the taxpayer representatives’ information to the ALS Unit. The ALS Unit uses 12 fax
machines to receive requests for lien processing. A printer was not designated specifically for

                                                                                             Page 5
                Fiscal Year 2006 Statutory Review of Compliance With Lien Due
                                     Process Procedures



taxpayer representative information. The fax machines may have run out of paper and memory
without management’s knowledge. Also, fax machines were not linked to each other so
overflow went to another fax machine. As a means of establishing control and to alleviate this
problem, employees began using secure email to send taxpayer representatives’ information to
the ALS Unit. However, management did not establish written procedures to ensure problems
similar to the fax machines issues do not occur because email also has memory limitations.
IRS procedures require that a copy of the notice be sent to the taxpayer’s representative no later
than 5 business days after the notice is sent to the taxpayer when an NFTL is filed. IRS
employees requesting the NFTL through the Automated Collection System (ACS) are
responsible for electronically forwarding the taxpayer representative information to the ALS
Unit, so a copy of the lien notice can be sent. Revenue officers using the Integrated Collection
System (ICS) may choose to send taxpayer representative information to the ALS Unit by fax or
email, or they may send the lien notice directly to the taxpayer’s representative without using the
ALS. The ALS Unit is responsible for preparing, printing, and mailing the lien notices to
taxpayer representatives.
Of the 34 NFTLs for which taxpayer representatives did not receive a notice, 4 liens
(11.8 percent) were initiated through the ACS. Although the ACS had taxpayer representative
information for these four liens, the IRS did not send lien notices to the taxpayer representatives.
The ACS has the ability to send an electronic file of taxpayer representative information directly
to the ALS Unit, where it is printed and manually keyed in by ALS Unit personnel; therefore,
there are few errors.
The other 30 of 34 NFTLs were initiated through the ICS. Revenue officers are required to
document in the case history when they request a lien notice for a taxpayer’s representative.
Revenue officers’ managers are also required to examine case files during the regular review
process for this documentation. For 19 of these 30 cases, revenue officers using the ICS did not
document that they had requested a lien notice be sent to the taxpayer representatives.
In the remaining 11 cases, no ICS records were available. IRS management stated this happened
because there is no archive of information in the ICS. Cases are closed, removed from the ICS,
and ultimately shipped to the Federal Records Center in Dayton, Ohio.
Since 2003, the IRS has been in the process of designing a programming enhancement to the ICS
and the ACS that will electronically update taxpayer representative information to the ALS. The
scheduled completion date for this enhancement has been postponed several times and is
currently planned for February 2008. However, a Request for Information Services (RIS) was
submitted by IRS management on November 18, 2005. This is the first step in the process for
requesting program changes. The initial RIS is considered an informal document that provides
early notification to the Modernization and Information Technology Services function that a
service or support request will be made, and it initiates precoordination. Once the requirements
are fully defined and coordinated, the customer submits a formal RIS. The Modernization and

                                                                                             Page 6
                Fiscal Year 2006 Statutory Review of Compliance With Lien Due
                                     Process Procedures



Information Technology Services function then prepares a formal RIS response, documenting the
work that it has agreed to do. As of March 2, 2006, the requirements had not been fully defined
and no formal RIS had been submitted. This program enhancement will likely be postponed
again.

Recommendations

Recommendation 2: The Director, Collection, SB/SE Division, and the Director, Campus
Compliance Services, SB/SE Division, should consider revising the proposed program
enhancements to systemically update POA information from the CAF on the IDRS to the ALS,
thereby eliminating the manual task of updating the POA information.

       Management’s Response: SB/SE Division management agreed with our
       recommendation and plans to discuss the feasibility of using the CAF to update the ALS
       with POA information.
Recommendation 3: The Director, Collection, SB/SE Division, and the Director, Campus
Compliance Services, SB/SE Division, should develop an alternate solution if the program
enhancements are not implemented, including establishing written guidelines for email
procedures.
       Management’s Response: SB/SE Division management agreed with our
       recommendation and will establish procedures addressing emailing POA information to
       the Centralized Lien Unit.

Undelivered Lien Notices Were Not Timely Controlled on the
Automated Lien System
IRS procedures require that an undelivered lien notice be sent to a different address if the initial
mailing is returned because it could not be delivered and a different address is available and was
known to the IRS prior to issuance of the lien notice. The ALS showed that only 8.67 percent
(13 of 150) of the NFTLs were returned to the IRS as undeliverable. However, we believe the
ALS information does not accurately reflect the volume of lien notices that were returned
undelivered.
During the course of our review, management advised us that the undelivered mail rate within
the CCP was approximately 50 percent. The undelivered mail issue has been an ongoing
problem for several years. In FY 2004, the SB/SE Division Headquarters Compliance Lien
Collection Due Process Reviews reported that the undelivered mail rate for lien notices was
between 60 percent and 75 percent. In October 2005, the Director, Collection, SB/SE Division,
expressed concern regarding the backlog of undelivered lien notices. Management information
reports for the last quarter of FY 2005 and the first quarter of FY 2006 showed 108,764 lien

                                                                                              Page 7
                   Fiscal Year 2006 Statutory Review of Compliance With Lien Due
                                        Process Procedures



notices were returned undelivered. Based on these reports, we estimate approximately
43 percent (108,764/255,264)7 of the lien notices were undelivered, unclaimed, or refused. We
also found no evidence that the ALS Unit worked the undelivered lien notices within 5 business
days, as required by IRS guidelines.
The IRS developed guidelines requiring employees to research IRS computer systems to identify
an updated address. When a notice is returned undeliverable and an updated address is available,
the employee is responsible for certain actions. For a lien processed through the ICS, an
employee in the ALS Unit researches the IRS computer system for a new address. If a new
address exists, the ALS employee will resend the notice. If there is no new address available, the
ALS employee forwards the notice to the revenue officer for his or her action. For a lien
processed through the ACS, an ALS Unit employee researches to determine if a new address is
available; if so, the ALS employee will send the notice to the new address. If the ALS employee
cannot find a new address on the IRS computer system, he or she will shred the notice and close
the lien case.
Since we identified an undelivered rate of only 8.67 percent for lien notices and management
sources showed significantly higher volumes, we plan to evaluate this issue in a subsequent audit
scheduled later in this fiscal year. We are making no recommendations at this time regarding
undelivered mail guidelines.




7
  These figures are defined as follows: 108,764 is the actual undelivered lien notice volume for the 6-month period
July 1 to December 31, 2005; 510,529 is the actual lien notice total for the 12-month period August 1, 2004, to
July 31, 2005; and 255,264 represents one-half of the 510,529 figure. Although the respective values are not from
the same time period, we feel confident in our estimate (43 percent) of undelivered lien notices because this issue
was prevalent throughout both time periods.




                                                                                                            Page 8
                  Fiscal Year 2006 Statutory Review of Compliance With Lien Due
                                       Process Procedures



                                                                                                 Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether Notices of Federal Tax Lien
(NFTL) issued by the Internal Revenue Service (IRS) comply with legal guidelines set forth in
Internal Revenue Code Section (I.R.C. §) 6320.1 Specifically, we:
I.      Determined whether liens issued by the IRS complied with legal requirements set forth in
        I.R.C. § 6320 (a) and related internal guidelines.

        A. Obtained from the IRS Automated Lien System (ALS) 2 Project Team an extract of
           liens prepared by the IRS nationwide from August 1, 2004, through July 31, 2005.
           The ALS extract contained 510,529 liens; it excluded refiled liens. We compared the
           total population for accuracy to the Collection Report of Liens for the same period.
           We validated the sample selected in Step I.B. by accessing the ALS database and
           verifying that the extract information was accurate. We also compared taxpayer data
           to the IRS Integrated Data Retrieval System.
        B. Selected a statistically valid sample of 150 liens for review from an ALS extract of
           the 510,529 liens filed by the IRS nationwide from August 1, 2004, through
           July 31, 2005. We used a statistical sample because we wanted to project the number
           of errors. We used attribute sampling and the following formula to calculate the
           minimum sample size (n),3 which we rounded to 150:
              n = (Z2 p(1-p))/(A2)
              Z = Confidence Level:            90 percent (expressed as 1.65 standard deviation)
              p = Expected Rate of Occurrence: 5 percent4
              A = Precision Rate:              ±3 percent
        C. Analyzed 150 liens using data from the ALS, Integrated Collection System,
           Automated Collection System, and Integrated Data Retrieval System to determine
           whether the IRS adhered to legal and internal guidelines.
             1. Obtained certified mail listings (CML) for 142 of the 150 liens (CMLs for 8 of the
                150 sample liens were not available) and compared the lien-filed dates to the

1
  I.R.C. § 6320 (Supp. V 1999).
2
  A description of IRS computer systems used in the filing of lien notices is included in Appendix VI.
3                     2            2
  The formula n = (Z p(1-p))/(A ) is from Sawyer’s Internal Auditing - The Practice of Modern Internal Auditing,
4th Edition, pp. 462-464.
4
  The actual error rate in our prior report was 4.67 percent.
                                                                                                          Page 9
                  Fiscal Year 2006 Statutory Review of Compliance With Lien Due
                                       Process Procedures



                 postal dates on the CMLs to determine whether the lien notices were sent to
                 taxpayers timely.
             2. Determined whether taxpayers, spouses, partners, and taxpayer representatives
                received notices.
             3. Determined whether the lien notices were mailed to correct addresses and the
                undelivered notices were appropriately processed.
        D. Determined whether guidelines over the CMLs have been implemented at the
           Cincinnati, Ohio, Campus.5
        E. Determined whether using the National Print Sites has improved the timeliness of
           mailing the lien notices to taxpayers.
        F. Discussed all exception cases with Small Business/Self-Employed Division
           Compliance function management for agreement to potential violations and
           corrective action, if appropriate.
II.     Determined whether internal guidelines have been implemented or modified since our
        last review by discussing procedures and controls with appropriate IRS personnel in the
        Small Business/Self-Employed Division National Headquarters. We included any
        planned new quality review procedures and the potential centralization of the ALS Unit.
III.    Determined the status of the Integration Collection System and Automated Collection
        System enhancements as planned and any problems encountered.




5
 A campus is the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                       Page 10
               Fiscal Year 2006 Statutory Review of Compliance With Lien Due
                                    Process Procedures



                                                                              Appendix II

                 Major Contributors to This Report

Curtis W. Hagan, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker Pearson, Director
Edward Gorman, Audit Manager
Marcus Sloan, Lead Auditor
Todd Anderson, Senior Auditor




                                                                                       Page 11
              Fiscal Year 2006 Statutory Review of Compliance With Lien Due
                                   Process Procedures



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 12
                  Fiscal Year 2006 Statutory Review of Compliance With Lien Due
                                       Process Procedures



                                                                                               Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:

•   Taxpayer Rights and Entitlements – Potential; 23,825 Notices of Federal Tax Lien (NFTL)
    with legal violations of taxpayers’ rights (see page 4).

Methodology Used to Measure the Reported Benefit:

From a nationwide statistically valid sample of 150 NFTLs,1 we identified 7 NFTLs
(4.67 percent) with potential legal violations of taxpayers’ rights. The sample was selected based
on a confidence level of 90 percent, a precision rate of ±3 percent, and an expected rate of
occurrence of 5 percent. We projected the findings to the total population provided by the
Internal Revenue Service (IRS) of 510,529 NFTLs prepared by the Automated Lien System2
from August 1, 2004, through July 31, 2005. We estimated that similar taxpayer rights could
have been affected in 23,825 NFTLs (7/150 x 510,529 population). We are 90 percent confident
that the range of NFTLs affected by similar errors is between 23,110 and 24,539.
Taxpayer rights could be affected because the taxpayer not receiving a notice or receiving a late
notice might not be aware of the right to appeal or have less than the 30-calendar day period
allowed by the law to request a hearing. In addition, taxpayer rights could be affected when the
taxpayer appeals the filing of the lien and the IRS denies the request for the appeal.




1
  One NFTL may require multiple lien notices because the Internal Revenue Service is required to separately notify
taxpayers’ spouses and business partners.
2
  A description of IRS computer systems used in the filing of lien notices is included in Appendix VI.
                                                                                                          Page 13
                Fiscal Year 2006 Statutory Review of Compliance With Lien Due
                                     Process Procedures



                                                                                    Appendix V

           Synopsis of the Internal Revenue Service
             Collection and Lien Filing Processes

The collection of unpaid tax begins with a series of letters (notices) sent to the taxpayer advising
of the debt and asking for payment of the delinquent tax. The Internal Revenue Service (IRS)
computer systems are programmed to mail these notices when certain criteria are met. If the
taxpayer does not respond to these notices, the account is transferred for either personal or
telephone contact. A description of IRS computer systems used in the filing of lien notices is
included in Appendix VI.
•   IRS employees who make personal (face-to-face) contact with taxpayers are called revenue
    officers and work in various IRS locations. The computer system used in most of these
    locations to track collection actions taken on taxpayer accounts is called the Integrated
    Collection System.
•   IRS employees who make only telephone contact with taxpayers work in call sites in IRS
    Customer Service offices. The computer system used in the call sites to track collection
    actions taken on taxpayer accounts is called the Automated Collection System.
When these efforts have been taken and the taxpayer has not paid the tax liability, designated
IRS employees are authorized to file a Notice of Federal Tax Lien (NFTL). Liens protect the
Federal Government’s interest by attaching a claim to the taxpayer’s assets for the amount of
unpaid tax liabilities. The right to file an NFTL is created by Internal Revenue Code
Section 6321 (1994) when:
•   The IRS has made an assessment and given the taxpayer notice of the assessment, stating the
    amount of the tax liability and demanding payment.
•   The taxpayer has neglected or refused to pay the amount within 10 days after the notice and
    demand for payment.
When designated employees request the filing of an NFTL using either the Integrated Collection
System or the Automated Collection System, the NFTL requests from both Systems are
transferred to the Automated Lien System (ALS). All NFTLs are processed by the ALS unless
there is an expedite situation, in which case the NFTL is manually prepared. Although they are
manually prepared and not printed through the ALS, manual NFTLs are tracked and controlled
on the ALS and the lien notice is processed through the ALS. The ALS maintains an electronic
database of all open NFTLs and updates the IRS’ primary computer records to indicate an NFTL
has been filed.

                                                                                            Page 14
                Fiscal Year 2006 Statutory Review of Compliance With Lien Due
                                     Process Procedures



Most lien notices are mailed to taxpayers by certified or registered mail rather than being
delivered in person. To maintain a record of the notices, the IRS prepares a certified mail listing
(United States Postal Service (USPS) Form 3877), which identifies each notice that is to be
mailed. The notices and a copy of the certified mail listing are delivered to the USPS. A USPS
employee ensures all notices are accounted for, then date stamps the listing and returns a copy to
the IRS. The stamped certified mail listing is the only documentation the IRS has that certifies
the date the notices were mailed. IRS guidelines require that the stamped certified mail listing be
retained for 10 years after the end of the processing year.




                                                                                           Page 15
                  Fiscal Year 2006 Statutory Review of Compliance With Lien Due
                                       Process Procedures



                                                                                             Appendix VI

Internal Revenue Service Computer Systems Used in
      the Filing of Notices of Federal Tax Liens

The Automated Collection System (ACS) is a computerized call site inventory system that
maintains balance-due accounts and return delinquency investigations. The ACS employees
enter all of their case file information (online) on the ACS. Lien notices requested using the
ACS are uploaded to the Automated Lien System, which generates the Notice of Federal Tax
Lien (NFTL) and related lien notices and updates the Internal Revenue Service’s (IRS) primary
computer files to indicate an NFTL has been filed.
The Automated Lien System (ALS) is a comprehensive database that prints NFTLs and lien
notices, stores taxpayer information, and documents all lien activity. Lien activities on both the
ACS and the Integrated Collection System cases are controlled on the ALS by Technical Support
or Case Processing functions at the Cincinnati, Ohio, Campus.1 Employees at the Cincinnati
Campus process NFTLs and lien notices and respond to taxpayer inquiries using the ALS.
The Integrated Collection System (ICS) is an IRS computer system with applications designed
around each of the main collection tasks, such as opening a case, assigning a case, building a
case, performing collection activity, and closing a case. The ICS is designed to provide
management information, create and maintain case histories, generate documents, and allow
online approval of case actions. Lien requests made using the ICS are uploaded to the ALS. The
ALS generates the NFTL and related lien notices and updates the IRS’ primary computer files to
indicate an NFTL has been filed.
The Integrated Data Retrieval System (IDRS) is an online data retrieval and data entry system
that processes transactions entered from terminals located in both campuses and other IRS
locations. The IDRS enables employees to perform such tasks as researching account
information, requesting tax returns, entering collection information, and generating collection
documents. The IDRS serves as a link from campuses and other IRS locations to the Master File
for the IRS to maintain accurate records of activity on taxpayers’ accounts.
The Master File is the IRS database that stores various types of taxpayer account information.
This database includes individual, business, and employee plans and exempt organizations data.




1
 A campus is the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                       Page 16
   Fiscal Year 2006 Statutory Review of Compliance With Lien Due
                        Process Procedures



                                                   Appendix VII

Management’s Response to the Draft Report




                                                           Page 17
Fiscal Year 2006 Statutory Review of Compliance With Lien Due
                     Process Procedures




                                                        Page 18
Fiscal Year 2006 Statutory Review of Compliance With Lien Due
                     Process Procedures




                                                        Page 19
